<html>
<title> - IMPLEMENTATION OF COAST GUARD PROGRAMS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








                 IMPLEMENTATION OF COAST GUARD PROGRAMS

=======================================================================

                                (115-39)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 7, 2018

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                                     ______
			     		 
                   U.S. GOVERNMENT PUBLISHING OFFICE 
			     		 
  31-306 PDF                WASHINGTON : 2018                 
			                                
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                             Columbia
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
DANIEL WEBSTER, Florida              ALBIO SIRES, New Jersey
JEFF DENHAM, California              JOHN GARAMENDI, California
THOMAS MASSIE, Kentucky              HENRY C. ``HANK'' JOHNSON, Jr., 
MARK MEADOWS, North Carolina             Georgia
SCOTT PERRY, Pennsylvania            ANDRE CARSON, Indiana
RODNEY DAVIS, Illinois               RICHARD M. NOLAN, Minnesota
MARK SANFORD, South Carolina         DINA TITUS, Nevada
ROB WOODALL, Georgia                 SEAN PATRICK MALONEY, New York
TODD ROKITA, Indiana                 ELIZABETH H. ESTY, Connecticut, 
JOHN KATKO, New York                     Vice Ranking Member
BRIAN BABIN, Texas                   LOIS FRANKEL, Florida
GARRET GRAVES, Louisiana             CHERI BUSTOS, Illinois
BARBARA COMSTOCK, Virginia           JARED HUFFMAN, California
DAVID ROUZER, North Carolina         JULIA BROWNLEY, California
MIKE BOST, Illinois                  FREDERICA S. WILSON, Florida
RANDY K. WEBER, Sr., Texas           DONALD M. PAYNE, Jr., New Jersey
DOUG LaMALFA, California             ALAN S. LOWENTHAL, California
BRUCE WESTERMAN, Arkansas            BRENDA L. LAWRENCE, Michigan
LLOYD SMUCKER, Pennsylvania          MARK DeSAULNIER, California
PAUL MITCHELL, Michigan              STACEY E. PLASKETT, Virgin Islands
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota
                                ------                                7

        Subcommittee on Coast Guard and Maritime Transportation

                  DUNCAN HUNTER, California, Chairman
DON YOUNG, Alaska                    JOHN GARAMENDI, California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
GARRET GRAVES, Louisiana             RICK LARSEN, Washington
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
RANDY K. WEBER, Sr., Texas           ALAN S. LOWENTHAL, California
BRIAN J. MAST, Florida               STACEY E. PLASKETT, Virgin Islands
JASON LEWIS, Minnesota, Vice Chair   PETER A. DeFAZIO, Oregon (Ex 
BILL SHUSTER, Pennsylvania (Ex           Officio)
    Officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Rear Admiral Linda L. Fagan, Deputy Commandant for Operations 
  Policy and Capability, U.S. Coast Guard........................     3
Nathan Anderson, Acting Director, Homeland Security and Justice, 
  U.S. Government Accountability Office..........................     3

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. John Garamendi of California................................    25

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Rear Admiral Linda L. Fagan......................................    28
Nathan Anderson..................................................    36

                       SUBMISSIONS FOR THE RECORD

Rear Admiral Linda L. Fagan, Deputy Commandant for Operations 
  Policy and Capability, U.S. Coast Guard, submission of the 
  following:

    Response to request for information from Hon. John Garamendi, 
      a Representative in Congress from the State of California..    22
    Responses to questions for the record from Hon. David Rouzer, 
      a Representative in Congress from the State of North 
      Carolina...................................................    34
Nathan Anderson, Acting Director, Homeland Security and Justice, 
  U.S. Government Accountability Office, post-hearing supplement 
  to a remark....................................................    23



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
                 IMPLEMENTATION OF COAST GUARD PROGRAMS

                              ----------                              


                        WEDNESDAY, MARCH 7, 2018

                  House of Representatives,
          Subcommittee on Coast Guard and Maritime 
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:04 p.m., in 
room 2167, Rayburn House Office Building, Hon. Duncan Hunter 
(Chairman of the subcommittee) presiding.
    Mr. Hunter. The subcommittee will come to order.
    Good afternoon. Without objection, the Chair is authorized 
to declare a recess at any time.
    The subcommittee is convening today to examine the 
implementation of certain Coast Guard programs, including those 
involving performance monitoring, the Service's Capital 
Investment Plan, and commercial fishing vessel safety.
    It is important that Congress understands the Coast Guard's 
ability to meet its missions. The Coast Guard conducts search 
and rescue, drug interdiction, and defense readiness activities 
on a daily basis, yet it is unclear how the Service tracks 
these activities. Members of the committee rely on the Service 
to report its performance to Congress and to the public.
    To ensure a full understanding of the Service's abilities, 
the Coast Guard Authorization Act of 2016 required the 
Government Accountability Office to look at whether the Coast 
Guard's annual performance goals and reported performance 
information accurately reflects the extent to which the Service 
is accomplishing its mission responsibilities. GAO found that 
the Coast Guard goals do not address all mission activities and 
that the Service does not sufficiently report its performance 
goals and actual performance.
    In addition to recognizing the degree to which the Coast 
Guard is able to accomplish its missions today, it is also 
critical that the committee understands how the Service plans 
to do so in the future. The Capital Investment Plan is supposed 
to reflect the capital investments necessary to meet mission 
requirements in the future. Unfortunately, the Coast Guard 
submits the CIP late every year, precluding its use to properly 
inform appropriation and authorization legislation.
    When a CIP is finally delivered, its profile often does not 
align with the needs of the Service as reported by the 
Commandant and other senior leaders. The Coast Guard says it 
needs new cutters and aircraft, yet the CIP contains outdated 
information that does not include funding to match those stated 
needs.
    As a glaring example, despite an over $1.5 billion funding 
shortfall to build and maintain shore infrastructure, the Coast 
Guard requests only nominal funding, $10 million--so I will say 
that again, $1.5 billion, as stated by the Commandant and other 
senior leaders--and the Coast Guard requested $10 million in 
2018 and $30 million for fiscal year 2019 for shore 
infrastructure projects.
    Rather than providing the information necessary to 
understand and support Service priorities, the Coast Guard 
relies on Congress to set those priorities by appropriating 
funding above the requested levels. Unfortunately, the Coast 
Guard has failed to adjust acquisition documents to reflect the 
funding for additional assets, lessening the reliability and 
value of the information provided in the CIP.
    The Coast Guard's failure to ensure CIP investment levels 
accurately reflect its mission requirements and prior 
appropriations leaves Congress without reliable information on 
which to base future appropriations and perform proper 
oversight.
    One Coast Guard mission area on which Congress has provided 
significant direction is commercial fishing and vessel safety. 
Congressional requirements regarding the construction and 
maintenance of commercial fishing vessels were enacted in 1988 
and expanded in 2010, 2012, and 2016. In addition, Congress 
directed the Coast Guard to implement regulations regarding 
vessel classification requirements and establish alternate 
safety compliance programs to allow smaller and older vessels 
to comply with requirements more suited to their unique 
characteristics.
    Unfortunately, the Coast Guard has failed to act on those 
directives. Instead, in 2016 the Coast Guard developed a, 
quote, ``Enhanced Oversight Program'' using existing policies 
and authorities focusing on older, nonclassified, nonclass 
fishing vessels that may have had an increased risk of vessel 
and crew loss.
    At the same time, the committee heard concerns from the 
commercial fishing industry regarding the lack of communication 
from the Coast Guard on the development of required alternate 
safety compliance programs. The Enhanced Oversight Program did 
not alleviate those concerns due to questions about the program 
being permanent or temporary, and if temporary, whether the 
Coast Guard would work with industry to develop the alternate 
safety compliance programs required by law.
    GAO reviewed the Coast Guard's implementation of commercial 
fishing vessel classification requirements and its impact on 
new vessel construction and will provide testimony on their 
findings today. I look forward to hearing from the Coast Guard 
on where the Service stands on implementing all of these 
requirements and more that I have mentioned.
    I thank our witnesses for being here today, and I look 
forward to hearing their thoughts on the issues.
    Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman. You have covered 
all of the issues that are before the committee and the 
concerns that the committee has. I would, therefore, like to 
for the record put my statement in. It deals with not only the 
issues you raised, but some of the other things that are before 
us, which are probably not going to be taken up today because 
of the time element that we have.
    Without a doubt, for us to do our job of authorization as 
well as oversight we need to have a solid foundation. Mr. 
Chairman, you went through that not only with the CIP, but also 
with the fishing vessel issue.
    So let's get on with it. My statement will be in the record 
for anybody that cares to search through the history.
    Mr. Hunter. Without objection.
    Mr. Garamendi. Thank you. I yield back.

        [Congressman Garamendi's prepared statement is on pages 25-27.]

    Mr. Hunter. I thank the ranking member.
    Today we will hear testimony from Rear Admiral Linda Fagan, 
Deputy Commandant for Operations Policy and Capability, United 
States Coast Guard, and Mr. Nathan Anderson, Acting Director of 
Homeland Security and Justice, Government Accountability 
Office.
    Rear Admiral Fagan, you are recognized to give your 
statement.

TESTIMONY OF REAR ADMIRAL LINDA L. FAGAN, DEPUTY COMMANDANT FOR 
OPERATIONS POLICY AND CAPABILITY, U.S. COAST GUARD; AND NATHAN 
ANDERSON, ACTING DIRECTOR, HOMELAND SECURITY AND JUSTICE, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Admiral Fagan. Thank you, Mr. Chairman.
    Good afternoon, Mr. Chairman, Ranking Member Garamendi, and 
distinguished members of the subcommittee. I appreciate the 
opportunity to testify today and ask that my written testimony 
please be accepted into the record.
    Mr. Hunter. Without objection.
    Admiral Fagan. Thank you for the enduring support and trust 
that Congress and this subcommittee have provided to the United 
States Coast Guard. The recent supplemental appropriation for 
hurricane response allows the Service to rebuild damaged 
infrastructure and remain resilient into the future. The Coast 
Guard is an integral part of many of these communities that 
suffered damage, and we were also impacted, as were the 
communities, and are committed to continuing to execute our 
missions in these regions.
    The Coast Guard operates in an increasingly complex world 
and strives to make the best use of the limited resources we 
have at our disposal. Through a deliberate approach known as 
the Standard Operational Planning Process, we continuously 
evaluate maritime threats and opportunities and develop plans 
to achieve mission success.
    Using national, departmental, and service strategies as 
guideposts, we leverage the intelligence community and this 
planning process to employ a risk-based approach to prioritize 
assets where they are needed most. Tactical commanders benefit 
from this process and have the flexibility to allocate 
resources on scene, ultimately allowing us to address maritime 
threats with the greatest precision and effect.
    The planning process is guided by an annual strategic 
review to assess performance with robust metrics, identify 
operational gaps, and delineate steps needed to close them. We 
are appreciative of the GAO's recent review of the performance 
assessment system, and we are working to incorporate the 
recommendations of continual improvement in this regard. And 
the agility of this system was applied during the hurricane 
responses this past summer when we mobilized and deployed 
nearly 3,000 members and helped rescue over 11,000 people in 
need.
    The performance measures we will discuss today are a result 
of a responsive, transparent, repeatable planning process. We 
shouldn't lose sight of the danger these measures reflect to 
our men and women who conduct frontline operations, and the 
decisions we make based on these metrics drive operational 
change in the field that affect our Coast Guard members. These 
are not just members, there are both public and Coast Guard 
lives on the line in these mission sets.
    This risk is always present with me as I work on policy and 
resourcing here in Washington, and I would like to share with 
you a story of how the system has impacted just myself 
personally.
    My daughter is a junior officer serving on one of our 
legacy cutters, a 210-foot cutter. It is 53 years old, out of 
Port Angeles, Washington. And this past October the Active was 
deployed into the Eastern Pacific in support of our Western 
Hemisphere strategy.
    An aircraft detected two pangas that appeared to be engaged 
in illicit activity. Three o'clock in the morning the Coast 
Guard cutter Active launched their small boat to intercept and 
interdict the two pangas. One panga remained stationary, but 
the other fled with contraband on board, and the cutter small 
boat gave chase, high-speed chase, as the smugglers were 
discharging contraband overboard.
    In the darkness and at high speed the cutter small boat and 
the panga collided. Following the collision, the panga swiftly 
surrendered and the Active's crew successfully apprehended the 
smugglers and more than 800 kilograms of cocaine.
    Thankfully, no one was hurt in the incident, but for me and 
for all of us the case is symbolic of the operations that the 
Service undertakes 24/7/365, and highlights the risk our men 
and women face in efforts to secure our borders, stop 
criminals, and save lives.
    The Active was directed to the Eastern Pacific as a result 
of this operational planning system and our Western Hemisphere 
strategy provided the framework for operations, and 
intelligence helped showcase the threat in this particular 
asset. And it was an operational commander that directed my 
daughter's ship to face this dangerous mission set.
    The Coast Guard's strategic planning process works. History 
has proven that a responsive, capable, and agile Coast Guard, 
using a deliberate planning process, is an indispensable 
instrument of national security.
    To protect American security and economic interests the 
Coast Guard continues to improve its strategic planning system. 
We look forward to continue to invest smartly in capabilities, 
maintain our technological edge, recruit, develop, and retain a 
highly capable workforce in order to succeed in this 
increasingly complex environment.
    Thank you again for the opportunity to testify before you 
today, and I look forward to your questions.
    Mr. Hunter. Thank you, Admiral.
    Mr. Anderson, I understand this is your first time.
    Mr. Anderson. Yes, sir.
    Mr. Hunter. Good. Go ahead.
    Mr. Anderson. Chairman Hunter, Ranking Member Garamendi, 
and members of the subcommittee, good afternoon.
    My testimony today is primarily based on work we have 
conducted over the past few years. I will address Coast Guard 
actions needed to improve the quality of data used for program 
management and improve the transparency of information used for 
reporting on its mission performance and capital planning.
    With regard to data quality, we have issued three reports 
over the past 2 years which underscore the need to collect and 
use quality data to make informed decisions. Our recent report 
on commercial fishing vessel safety illustrates the need for 
the Coast Guard to improve the completeness of mission data.
    Commercial fishing has one of the highest death rates of 
any industry in the United States. Vessel disasters are the 
leading cause of fatalities among fishers. Although the Coast 
Guard investigates these incidents, we found that rates of 
accidents, injuries, and fatalities involving commercial 
fishing vessels cannot be determined. Reliable data are either 
not maintained or are not collected by the Coast Guard or other 
Federal agencies.
    Having this information could be useful to carrying out the 
Coast Guard's marine safety mission. The Coast Guard reported 
that it is taking some actions to address our recommendations, 
and we will continue to monitor these actions.
    Our review of Coast Guard strategic planning illustrates 
the need for the Coast Guard to also use data on actual asset 
performance to inform its allocations of assets to field units. 
We found that the Coast Guard's strategic allocations of assets 
were based on unrealistic assumptions about the asset 
performance capacities.
    They also did not take into account actual asset condition 
or maintenance needs. For example, the Coast Guard operates 
cutters that are 40 to 50 years old. These cutters are hampered 
by mechanical problems requiring emergency dry dock repairs, 
which results in reduced availability to carry out their 
missions.
    Officials from one field unit told us that they had planned 
for 575 hours per vessel per year for one type of cutter in 
contrast to the headquarters' assumption of 825 hours 
performance capacity for the same asset. As a result, direction 
from headquarters, which is based on asset performance capacity 
rather than actual performance hours, did not provide the field 
with realistic goals for allocating assets by mission.
    Now, our review of Coast Guard performance information 
illustrates the need for the Coast Guard to also improve the 
data it uses for establishing its performance goals. For 
example, the Coast Guard has two performance goals related to 
its drug interdiction mission. While the two goals capture 
performance data related to cocaine, they do not capture 
performance data for any other illegal drugs that the Coast 
Guard interdicts.
    We and others, including the DHS [Department of Homeland 
Security] inspector general, have reported on the need for 
measures to accurately assess progress toward achieving desired 
outcomes. We recommended that the Coast Guard develop 
additional goals to address mission activity gaps or explain 
why certain aspects of mission performance are measured while 
others are not.
    Let me now turn to the issue of transparency.
    Our recent reports have identified areas in which the Coast 
Guard could improve transparency of information used for 
capital planning. For example, our work on the Coast Guard's 
annual 5-year Capital Investment Plan found that the plan does 
not consistently show the effects of tradeoffs that are made as 
part of the annual budget cycle. This could make it difficult 
for the Coast Guard to afford its planned program of record.
    In 2014 we recommended developing a 20-year plan that 
identifies all necessary recapitalization efforts and any 
fiscal resources likely necessary to build these assets. In our 
recent work we have continued to emphasize the importance of 
this type of capital planning.
    The Coast Guard generally concurred with our 
recommendations and is in various stages of implementing them. 
For example, in 2016 the Coast Guard revised its mission needs 
statement. This statement provides a basic foundation for the 
long-term investment planning that is to serve as the basis for 
evaluating the effectiveness of various fleet mixes.
    However, the 2016 mission needs statement did not identify 
specific assets the Coast Guard needs to achieve its missions. 
It also did not update the annual hours the Coast Guard needs 
from each asset class to complete its missions.
    It is unclear when the 20-year plan will be completed, but 
its analysis could serve as the foundation for understanding 
potential tradeoffs that could be made across the Coast Guard's 
portfolio of acquisitions to better meet mission needs within 
realistic funding levels. Such an analysis would facilitate a 
fuller understanding of the affordability challenges facing the 
Coast Guard.
    In closing, our work has found that the Coast Guard can do 
more in terms of collecting, using, and improving the 
transparency of information to help meet its mission.
    Mr. Chairman, this concludes my statement. I would be happy 
to take any questions you may have.
    Mr. Hunter. Thank you, Mr. Anderson.
    Admiral, let's start here. I want to make it clear so you 
know what this hearing is about. It is about the implementation 
of Coast Guard programs. This isn't about whether the Coast 
Guard does its job or not, because the Coast Guard does its 
job. It is not about the coastguardsmen not taking risks, 
because they take risks every day in defense of this Nation. 
You have 11 statutory missions. We are not talking about that 
at all.
    We are talking about things like this, and we will start 
with this one. The Coast Guard Authorization Act of 2010 
required the following for seamen's shoreside access. Do you 
know what that means, seamen's shoreside access?
    Admiral Fagan. Yes, Mr. Chairman, I do.
    Mr. Hunter. OK. I will read it for the record here. ``Each 
facility security plan approved under section 70103(c) of title 
46, United States Code, shall provide a system for seamen 
assigned to a vessel at that facility, pilots, and 
representatives of seamen's welfare and labor organizations to 
board and depart the vessel through the facility in a timely 
manner at no cost to the individual.'' That was 2010.
    Every year since 2015, which is 5 years after 2010, the 
Coast Guard has said that the seafarer access final rule will 
be issued in the near future. Is it issued?
    Admiral Fagan. No, Mr. Chairman. The final rule is with the 
administration. And I am happy to provide a detailed brief once 
it is cleared. But it is in clearance with the administration.
    Mr. Hunter. So I will just add these up. That is 8 years.
    Let's go on to the next one. Between 2013 and 2017 Congress 
appropriated over $2 billion more for acquisitions than the 
Coast Guard requested in order to meet emerging needs and 
appropriately position the Service to meet all the mission 
demands. For the past five budget cycles, that is 10 years, 
Congress has appropriated $2 billion more for Coast Guard 
acquisitions than was requested.
    Why is that? That is 10 years, five budget cycles--or is 
that 5 years? Am I thinking terms or years? Five years, sorry, 
so we will just go 8, there is 5.
    Admiral Fagan. So, sir, I am not sure I completely 
understand.
    Mr. Hunter. So we--let me phrase it easier. Congress gives 
you more than you ask for, knowing what you need somehow better 
than you know, and that is where the GAO metrics come in. And 
what I am learning this year in the Department of Defense and 
all the different acquisition changes that we are doing, the 
metrics that you are using, whether it is you dotted the i's or 
crossed your t's or did every process point that you were 
supposed to do, your outcomes are what we want to measure. And 
we want to measure those, your time outcomes, as well.
    Your time metrics are horrible. I mean, if this was an F-35 
being built or boats being built, which you went through boats 
being built with no actual boats being built but spending 
billions of dollars, that is what this is coming from. There 
are no metrics for us, for GAO, or for the public to see that 
you are accomplishing what you are telling us you are going to 
be accomplishing in the future.
    And go ahead and tell us why you don't request the $2 
billion for the last 5 years that we have added on to make sure 
that you can do your jobs.
    Admiral Fagan. So, Mr. Chairman, I would like to talk to 
how we do utilize metrics. And I talked in my opening remarks 
about the operational planning process that we use for a 
repeatable, recurring, predictable process that allows us to 
make resourcing decisions and resource allocations against the 
11 statutory missions. It is a key part of iterating and 
continuing to approve.
    We absolutely engage with the budget process, understand 
the important oversight role that this committee plays in 
ensuring that the Coast Guard is properly budgeted and 
resourced.
    Mr. Hunter. I don't understand. Why is it $2 billion short 
every year when we give you the $2 billion that you need? And 
you spend all of it. I mean, you don't say, ``we don't need 
that,'' and there is $2 billion left over every year, right?
    Admiral Fagan. Yes, sir. And the Commandant has testified 
and has been very consistent in the need for a stable, 
recurring $2 billion CIP, 5 percent annualized O&M growth, and 
the need to begin having stable and recurring money, $300 
million a year, to begin to buy back some of the shoreside 
backlog that the Service currently has.
    And we certainly appreciate all of the support that the 
administration and this committee have given us in ensuring 
that we are resourced in a manner that helps us continue to 
meet our mission needs and requirements.
    Mr. Hunter. OK. So we will hit CIP here last. It is always 
late. And from what I was looking through and reading the 
materials up to this, it looks like the life-cycle cost 
estimates are always off. The last one, the last CIP you had 
for the NSCs [National Security Cutters], didn't even have the 
new NSCs on it, the ones that were appropriated for that the 
Senate put in, the extra NSC.
    If you could speak to the CIP. Is it the process within the 
Coast Guard that it is all fouled up so it is not able to be 
done on time for the President's budget request and for our 
authorization process for the Coast Guard bill? I mean, what is 
the problem and what will help?
    Admiral Fagan. So, sir, I acknowledge that the CIP, the 
fiscal year 2019 CIP is late. We are as anxious to deliver the 
CIP to the committee and our overseers as you are to receive 
it. I assure you that it is a critical document to us as it is 
to you, and we are working with due diligence and a sense of 
urgency to complete that document.
    So the bad news is it is late, I acknowledge that. We are 
working to be responsive and deliver it to this committee, sir.
    The good news is when the CIP is delivered some of the 
life-cycle cost estimates, particularly with regard to the NSC, 
will have been updated and revised, and I think you will be 
pleased to see that progress, sir.
    Mr. Hunter. And hopefully it will be 2018 and not 2016 or 
2017.
    Admiral Fagan. Yes, sir. I am hopeful that we will deliver 
the fiscal year 2019 CIP shortly, sir.
    Mr. Hunter. All right.
    Mr. Garamendi.
    Mr. Garamendi. Mr. Chairman, thank you. Your line of 
questions raises a significant problem for us in that we are 
given information about what the Coast Guard wants and it is 
significantly different from what we anticipate the Coast Guard 
needs, and you were referring to the couple billion dollars 
annually.
    I would like to go into the process a little more deeply 
here. The budgeting process generally begins with OMB [Office 
of Management and Budget] sending the various departments its 
expectations, that is OMB's expectations for the coming year. 
You then have a pass back and OMB then checks that out, and 
then that eventually becomes the President's budget.
    Is that essentially what happens here?
    Admiral Fagan. Yes, sir.
    Mr. Garamendi. I thought so. So the question is, is it an 
answer to the chairman's question that the problem begins with 
OMB sending the Coast Guard a minimum budget that doesn't 
reflect what we perceive the needs of the Coast Guard to be? 
And I am not sure you want to answer that. Let me just make 
that a statement. My recollection when I was at the Department 
of the Interior, that is how it works, and so there is a 
constant tension back and forth.
    What we need, therefore, is at the end of our process to 
have a clarity over the 5-year period as to what is expected, 
what we expect the Coast Guard to do that is consistent with 
our authorization. Can the Coast Guard provide that information 
to us without OMB sidetracking the data?
    Admiral Fagan. We engage in the budget process as you have 
outlined it, sir, and we are working with a sense of urgency 
and diligence to deliver that 5-year outlook to the committee. 
We understand how critical it is for the oversight and 
investment decisions that need to be made, and we are fully 
engaged with the budgetary process, sir.
    Mr. Garamendi. Perhaps a way that we could address this 
issue is that at the conclusion of our annual or semiannual 
authorization for the Coast Guard we have authorized a plan, a 
certain number of ships for this class or that class, certain 
number of personnel and so forth for the out-years. And perhaps 
maybe the answer here is for us to require the Coast Guard to 
report its progress in the authorization that we have provided 
in the most recent reauthorization of the Coast Guard 
functions.
    Could the Coast Guard do that without OMB screwing up the 
numbers? I should not add that last clause to it. Let me just 
say, could the Coast Guard report back on its progress in 
meeting the authorized activities?
    Admiral Fagan. Sir, we would absolutely be responsive to 
the desire to understand how the authorizations have been 
executed.
    Mr. Garamendi. I think there may be a way of having the 
Coast Guard be responsive to the authorization, rather than 
responsive to the annual instructions from OMB. I will just let 
that hang out there and consider that myself and perhaps with 
the chairman and staff that that might be way we can be up to 
date and require that the Coast Guard at least be responsive to 
what we have authorized to be done, recognizing that we are not 
the only player in the game. Certainly the President and the 
administration are as they allocate in their minds the 
resources of the Nation.
    Just generally, Mr. Anderson, it appears as though your 
report indicates that the Coast Guard is making steps to and 
progress in answering the performance questions that you, GAO, 
have raised over the years. Is that correct?
    Mr. Anderson. Yes, that is correct. And I would like to 
applaud the Coast Guard for concurring with virtually all of 
our recommendations on improving data quality in the context of 
performance goals.
    I would also like to note that the Coast Guard routinely 
develops corrective actions and articulates those corrective 
actions when a goal is unmet. They put these corrective actions 
into the APR [Annual Performance Report], and we applaud them 
for that.
    I think our point on the corrective action score in terms 
of those unmet goals is that some of the corrective actions 
aren't measurable or time bound, and those are criteria that we 
would like to see for full closure of those recommendations.
    Mr. Garamendi. OK. Before the chairman disciplines me, I 
will yield back.
    Mr. Hunter. I thank the gentleman.
    Mr. Weber, you are recognized.
    Mr. Weber. Thank you, Mr. Chairman.
    Admiral Fagan, a couple of questions for you.
    Does the administration get periodic updates or do they 
just when the OMB--when you all come in for a request, does the 
OMB just get it once a year and look at it?
    Admiral Fagan. So, again, sir, we fully engage in the 
budget process at all of the multiple steps and endeavor to be 
responsive to each of the pieces in the process as the 
President's budget is developed.
    Mr. Weber. So is there someone who interacts with the White 
House kind of on a periodic basis or is it just you walk in 
there and present a budget proposal to him?
    Admiral Fagan. We have a budget shop within the Coast Guard 
that engages the Department and the administration and entities 
as other organizations do as the budget process is developed.
    Mr. Weber. OK. Of course you know about the annual report 
that says if your stated goals were modified to address 
``mission activity gaps.'' Is that addressed periodically or is 
that something you all report with the GAO, back to GAO, on an 
annual basis? Or do they monitor?
    Maybe that is a question for Mr. Anderson.
    Do you monitor that periodically?
    Mr. Anderson. We monitor that when we have ongoing 
engagements, looking at that within the scope of our work for 
Congress. So as that comes up in our ongoing engagements that 
would be something that would be reportable.
    Mr. Weber. OK.
    And, Admiral Fagan, do you agree with that assessment? Do 
you all have that kind of dialogue periodically?
    Admiral Fagan. I do, with regard to measures in the 
operational planning process that we utilize. It very much is 
an ongoing iterative discussion. We work with the Department, 
with GAO. The goal is to be better at the end of each cycle 
than we were when we started it.
    Mr. Weber. So they have stated that you have mission 
activity gaps. Do you--``test'' is not the right word--but do 
you monitor that, do you come back and say, ``Here is how you 
can address that gap and how you can do it better''? Do you all 
have that kind of interaction on a periodic basis?
    Admiral Fagan. Where there are gaps there is a very healthy 
discussion of what the gaps are, how to make the measure more 
reflective of performance in the mission set. And, again, it is 
very much an ongoing and continuing conversation so that we 
have the best, most reflective measures of performance 
available to our overseers and to the public.
    Mr. Weber. Other than not calling you all in here to 
testify to too many hearings, how can Congress help you all 
make that goal? In other words, close those gaps. How can we 
help you do that?
    Admiral Fagan. So, generally, sometimes the gaps are a 
result of how the performance measure is framed. Others can be 
a result of not being the only entity that controls an outcome.
    Congress has been exceptionally supportive of the Coast 
Guard and of helping us to ensure that we are best meeting 
those performance metrics and measures, and we look forward to 
continuing an open and continuing dialogue with our overseers 
and with the other governmental agencies that share that same--
--
    Mr. Weber. And we appreciate that. Vice Admiral Karl 
Schultz came to my district in Texas, the three coastal 
counties, after Hurricane Harvey and just did an absolute--the 
Coast Guard just did an absolute yeoman's job. And I am not 
even sure that is accurate enough. So we appreciate that.
    Would you give us any suggestions, Admiral, as to--and I 
have got about 1 minute left--how else we could help you?
    Admiral Fagan. Sir, this committee and Congress have been 
exceptionally supportive. We absolutely are committed to 
providing the information the committee has asked for to enable 
the oversight and resourcing conversation that is so critical 
to the success we achieved in Texas this past summer and the 
ongoing successes in the mission sets around the country, sir. 
Thank you.
    Mr. Weber. You betcha.
    All right, Mr. Chairman, I am going to yield back.
    Mr. Hunter. I thank the gentleman.
    I think what you have done, you have actually beat us down. 
We know if we require more reports from you, we just won't get 
them in the future, so we won't ask for any.
    Ms. Plaskett is recognized.
    Ms. Plaskett. Thank you, Mr. Chair.
    And first I want to just let everyone know how incredibly 
pleased and grateful I am to be here on this subcommittee and 
to have my first subcommittee hearing with Admiral Fagan.
    Thank you so much for all that you and your men and women 
of the Coast Guard did for the Virgin Islands. I have been 
grateful for you even bringing me back home once or twice on 
some of your vessels as I was trying to make my way back home 
during the aftermath of Hurricanes Irma and Maria.
    So the people of the Virgin Islands are enormously grateful 
to you all for the work that you have done and continue to do 
on our islands.
    When I was looking at the GAO report one of the things that 
I noted was a discussion about the use of more realistic asset 
performance data. And they said that they reported ``that the 
Coast Guard's strategic allocations of assets were based on 
unrealistic assumptions about the performance capacity of its 
assets and did not reflect asset condition and unscheduled 
maintenance.''
    Can you talk just briefly about what your assessment of 
that portion of the report means?
    Admiral Fagan. So we continually evaluate what type of 
performance and effect we would be able to achieve with the 
assets that we have assigned. And performance measures that we 
use for the different asset types have served us well. There 
are some areas GAO has pointed out, and we are looking at how 
to refine those measures to best reflect how the resources are 
able to perform in the mission sets.
    Ms. Plaskett. Well, to me, in a best case for the Coast 
Guard scenario, what this appears to me to mean is that you are 
trying to outperform yourself on assets and with material that 
doesn't meet the needs of what you all would like to do, that 
you are pushing your people and maybe performing in a manner 
that outperforms antiquated or old, you know, when they talk 
about unscheduled maintenance and the need for cutters that 
were 50 years old and the cutters were hampered by mechanical 
failure requirements.
    If, in fact, you had the assets that you needed and were 
the best case scenario in terms of your budget allocations and 
the budgets that we have given you, then you would be able to 
perform more effectively. You know, as a parent that is what I 
would tell if my kid got a bad grade and they said that about 
me. What do you think?
    Admiral Fagan. So thank you.
    Which is why we have undertaken the significant 
recapitalization that we have of the Coast Guard. The legacy 
assets do experience increased maintenance days, and those are 
days that they are not employed against the mission set.
    The quicker we are able to bring the new assets online, I 
will use, for example, particularly in the Virgin Islands and 
the Caribbean, the Fast Response Cutters that are being 
deployed into that region are being deployed for great effect 
against some of the threats and the mission set and are 
experiencing some significant success.
    Ms. Plaskett. But as you talk about the fast cutters that 
are being used, I know, in the Virgin Islands, how is the 
effectiveness of that in comparison to the use of National 
Security Cutters or Offshore Patrol Cutters or having a larger 
amount of cutters to be able to meet the needs of what you see 
are the national security threats in that region?
    Admiral Fagan. So the new modernized cutters, the National 
Security Cutters, operational, the OPCs [Offshore Patrol 
Cutters] and the FRCs [Fast Response Cutters], are incredibly 
capable assets that with other force packages, aircraft and 
small boats, increase the effect that we are able to achieve in 
the mission sets. A National Security Cutter, a day afloat on a 
National Security Cutter provides a much larger impact than 
that same day afloat on a legacy 378-foot High Endurance 
Cutter.
    Ms. Plaskett. Thank you.
    And just in closing, do you have any report on the status 
of the Coast Guard marine debris removal operations? I know 
there have been recent Washington Post articles about the state 
of debris removal in the Virgin Islands, and I know a lot of 
that is the Army Corps of Engineers. But has the Coast Guard 
been deployed to assist in moving those things directly off the 
island and are facing regarding these activities within the 
Virgin Islands and Puerto Rico, as well?
    Admiral Fagan. We were heavily involved under ESF-10 in a 
number of spill responses and heavily involved in removal of 
recreational vessels. The larger debris removal I don't have 
any information on.
    Ms. Plaskett. OK. Thank you. I yield back.
    Mr. Hunter. I thank the gentlelady.
    Mr. Graves, you are recognized.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman.
    Admiral, thank you very much for being here.
    First issue. In August of 2016 the Coast Guard proposed a 
final rule for TWIC [Transportation Worker Identification 
Credential] card readers at certain facilities adjacent to 
waterways. We had strong concerns that we spoke about in this 
committee room. We had subsequent followup meetings with the 
Coast Guard on that. And we are seeing inconsistent guidance 
coming out of the Coast Guard to some of these facilities.
    And just to give you a little background, I think you know 
this, but you have a number of facilities that may have 
maritime access or a maritime component, but that can be a very 
minor component of a much larger facility. Yet you are 
requiring TWIC card readers at the entire facility.
    These can be costly. Some of the information or guidance on 
securing some of the private information related to this has 
not been provided to some of these facilities. And I will say 
it again, that the Coast Guard indicated to us in this room and 
indicated to us in meetings that this could be delayed and sort 
of probably some stakeholder engagement, maybe looking at some 
tweaks to it.
    So now we are in a situation where August of this year is 
implementation. All these facilities have been operating under 
the assumption for the last several months that there was going 
to be some type of change or revoking this rule while folks 
thought through it a little bit more. And now we are getting 
inconsistent guidance on whether or not this is going to 
actually apply in 2018 of this year.
    Can you give me a little bit of an update on what we should 
be telling our constituents?
    Admiral Fagan. Yes, thank you. The Coast Guard is working 
in support of DHS----
    Mr. Graves of Louisiana. Would you mind going closer to the 
microphone?
    Admiral Fagan. I am sorry, sir. The Coast Guard is working 
in support of DHS, who is the regulatory lead on the effort. We 
are well aware of the confusion that when the final rule was 
published this summer with regard to extent of applicability, 
and particularly the concern no opportunity to comment. And so 
we are working with DHS to ensure that we provide the clarity 
that has been sought by your constituents.
    Mr. Graves of Louisiana. So it is March now. We are talking 
about August. That is 5 months. And some of these potential 
changes to comply with the rule candidly would probably take 1 
year of construction and in some cases maybe even longer.
    And I know you are aware we have all these chemical 
facilities along the Mississippi River between Baton Rouge and 
New Orleans, one of the largest industrial corridors in the 
world, and all of them have been operating under the assumption 
that this was going to be pulled back, because that was the 
signal that we were all given.
    And so we have strong concerns with the certainty and the 
ability of these facilities to even comply. And, again, we 
really need to know what to tell them to do at this point. I 
don't think it is fair, quite frankly, to come in and say, 
well, no, actually we are going to leave it in place as it was 
before, because I think we all acknowledge that the ability to 
comply probably was a little bit too challenging for some 
facilities based on how they are laid out.
    I am really just looking for some guidance on what we are 
supposed to tell them. And what would you do if you were a 
plant or some other type of facility adjacent to one of these 
waterways right now?
    Admiral Fagan. Yes, sir, I understand the need for clarity. 
Again, we are working within the rulemaking process at DHS 
diligently to provide better clarity and certainty for the 
entities impacted by that rulemaking, sir.
    Mr. Graves of Louisiana. All right. I am going to say it 
one more time, that you can't comply with it at this point. You 
can't. Most of these places don't have enough time.
    And if this is a problem at DHS or somewhere else I really 
would appreciate you all helping us identify where the 
challenge is, because it is just not fair. There was an 
opportunity for stakeholder input, and it is not fair at this 
point to come back and say, well, we are just going to leave 
the previous rule in place and apply it in 5 months.
    So I appreciate you taking that back. If you want to talk 
to us offline about where we should be directing our phone 
calls or other things, I would appreciate that.
    The fiscal year 2019 budget has approximately $720 million 
in it for three heavies. And I understand that last week it 
went out for an RFP on design and construction.
    Can you talk a little bit about what your expectation is 
for timeline moving forward on when those would actually be 
operational and just some type of Gantt chart on what we are 
looking at moving to the right?
    Admiral Fagan. Yes. On Friday we did release the RFP 
broadly, looking for resource proposals for beginning 
construction of a heavy icebreaker. The Gantt chart moving 
forward is hopeful that the first heavy is delivered 2023 with 
then out-year delivery of additional hulls.
    We used industry studies as a best practice to help in 
development of those RFPs and as a means to just help 
accelerate the quality of the design and the timeframe moving 
forward, and we are standing by and ready to execute when 
additional moneys are appropriated.
    Mr. Graves of Louisiana. All right. So first hull 2023. The 
next two obviously to the right of that. And you think things 
stay on schedule right now and anticipate funding obviously in 
the out-years to keep this thing going?
    Admiral Fagan. Yes, sir we have never been closer to having 
a heavy icebreaker as a Nation. It is critical. My first 
assignment 35 years ago was on the Polar Star. I am well aware 
of the criticality and national security need of replacing that 
vessel, and I am confident we are on a positive timeline, sir.
    Mr. Graves of Louisiana. They are not paying attention, so 
I am going to keep talking.
    Can I keep going? Is that all right?
    [Audio malfunction in hearing room.]
    Mr. Graves of Louisiana. Oh, come on. You know what, Mr. 
Garamendi, you all go so far over. I sat here and watched you 
all like go 20 minutes in the red. So you all just keep 
talking. You all are good.
    Three mediums. The budget--I am sorry, I am going to talk 
about three mediums then talk about another issue in the 
budget.
    Can you talk about three mediums and sort of just what you 
expect timeline on that and a little bit about operations and 
again delivery on something on three mediums?
    Admiral Fagan. So the priority are the heavy icebreakers. 
We are focused right now on opening the delivery and product 
line on the heavy icebreakers, and the medium becomes part of 
those out-year conversations as we bring the first heavy 
online.
    Mr. Graves of Louisiana. Am I correct in recalling, though, 
that you all did identify the requirements for three mediums as 
well?
    Admiral Fagan. Yes, sir, three heavies, three mediums.
    Mr. Graves of Louisiana. OK. And so you are focusing on the 
three heavies, and obviously those are going to be significant 
costs on those. The mediums you are expecting further right. So 
you are expecting all three heavy hull deliveries, then moving 
to mediums. Do you expect any concurrent----
    Admiral Fagan. The exact timeframe on the mediums moving 
forward are very much part of the ongoing discussions. Focus 
absolutely is on the heavies, and then we will look to leverage 
what we can from the heavy icebreaker.
    Mr. Graves of Louisiana. OK. I think I can speak for Mr. 
Hunter, Mr. Garamendi on this, I am not sure that Congresswoman 
Plaskett cares about icebreakers in the Virgin Islands maybe. 
But as you know, the comparison of U.S. capabilities to other 
Arctic nations, we are significantly further behind where we 
are. You have a number of advocates here to ensure that we have 
the capabilities we need to address many missions of this 
Government. And just want to urge you to keep that on the front 
burner.
    Last issue. The Waterways Commerce Cutter, I think there is 
$5 million in fiscal year 2019 budget for that. Just curious if 
you can just very quickly again give us a summary of what you 
expect that to look like moving to the right.
    Admiral Fagan. Yes, sir, there is money in the budget for 
the Waterways Commerce Cutter. Again primary focus with regard 
to the next major project is the heavy icebreaker, but very 
much beginning requirements development and the work that 
marches us forward with regard to acquisition and replacement 
in the Waterways Commerce Cutter. That timeline, as well, will 
resolve itself, but again, a sense of urgency again and another 
major recapitalization need.
    Mr. Graves of Louisiana. Great. Thank you.
    Mr. Chairman, I would like to yield back all of my 
remaining time to Mr. Garamendi.
    Mr. Hunter. You owe us now.
    Mr. Garamendi, you are recognized for further statements or 
questions.
    Mr. Garamendi. Given the extraordinary response of the 
Coast Guard to the hurricanes, I would expect that this year's 
metrics are not going to meet what was anticipated. Unintended 
or unanticipated events will undoubtedly modify those metrics.
    And so in the reporting to us and to the GAO how can this 
be taken into account, by simply noting that we had 2,000 
personnel that were doing things other than chasing drugs in 
the Caribbean? They were chasing survivors. Does that work? 
Does that fit for the GAO and how you might respond?
    Admiral Fagan. So you very accurately identified the 
opportunity cost to the organization associated with the 
responses this summer. How those are accounted for and the 
impacts on the performance metrics and measures will be part of 
the operational planning process in our internal look, the 
repeatable, reliable process.
    I am not an expert on how we will do that bookkeeping, but 
I would expect that there will be some adjustment that reflects 
the significant level of effort expended by boats and assets 
and cutters against the disasters this past summer.
    Mr. Garamendi. And I suppose GAO, as you do your reviews, 
you take these things into account.
    Mr. Anderson. Absolutely. Our October 2017 report did focus 
on the goals and the reasons for unmet goals and highlighted 
seven case studies where we took a look at performance goals 
that crossed a variety of missions. And we analyzed some of the 
meaning behind why goals weren't met.
    We would just like to point out, though, that your question 
does underscore something very important about the handful of 
reports that we have used to support this testimony statement, 
and that is, good data is needed for good allocation of assets. 
And we pointed out several times where there is a bit of a 
mismatch between the actual use and the assumed use of a 
handful of assets, which could limit the ability of the Coast 
Guard to surge.
    So bringing this back to our central message, better data 
available on actual asset use will provide a clearer picture 
for the Coast Guard to then reallocate when there are 
unanticipated events.
    Mr. Garamendi. OK. Thank you.
    One of the results of the hurricanes was a significant loss 
of property assets, Coast Guard assets, and we have approved a 
budget for the replacement of those assets, or the replacement 
improvements, and whatever other maintenance might be required, 
to the tune I think of something less than $1 billion.
    Here is where I want to go with this question, and I want 
to use this for the other programs of record that are out 
there, and that is that it is important to me and I believe to 
this committee that we have a continuing update not every 
month, perhaps not every other month, but maybe on a 6-month 
cycle on the progress of these measured programs.
    Mr. Graves spoke at length on things that are really not 
his turf, that is our turf, my turf, the chairman's turf, we 
call that our icebreakers, not Graves' icebreakers, but we will 
get over that, and we will deal with that personally here.
    But he raises a very, very important point: What is the 
progress? How is it going? What problems have you encountered 
in the design, the money, the contracting, and the like? And 
then carrying on to the other light icebreakers, other heavies 
and other lights. We need to know that.
    And so for all of the major programs that you have 
underway, the Offshore Patrol Cutters, the other various 
capital programs that you have, and now the followup on the 
hurricane repairs, these are important things for us to keep 
track of for two reasons. One, we may want to modify the 
program of record. Or we may want to cancel or augment. And we 
can't do that unless we know where you are in the process.
    Now, I understand you do this occasionally, but not in a 
periodic way, so that, say, every 6 months where are you with 
the I think it is Fast Response Cutters that are built in Mr. 
Graves' district? Where are you with the Offshore Patrol 
Cutter? All of those things.
    Where are you periodically along the line so that we can 
say, oh, my, there is a problem that comes about for whatever 
reason, and then we can address it or not, or encourage you to 
address it? Is that a sensible way for us to keep track of 
where we are in these programs that we have laid out for the 
Coast Guard to do? And can you do it?
    Admiral Fagan. We very much do what you have described with 
regard to program management and oversight of our major 
acquisitions, any one of which you have named. It is a regular, 
recurring, senior leadership-driven review. We are responsible 
to DHS as well.
    And so the process is there. And to the extent that we can 
and should share information with our overseers I am confident 
we have got a well-developed ongoing process with regard to 
ensuring that we are responsibly and transparently and reliably 
spending the resources that are generously allocated to us.
    Mr. Garamendi. So internally it is being done on these 
major programs.
    Admiral Fagan. Yes, sir.
    Mr. Garamendi. And I suppose on the other, the 11 specific 
tasks that you are required to carry out, search rescue, so on 
and so forth, drug interdiction, and the like.
    I am going work with the chairman and see if there is some 
way that we could receive just a periodic review of that.
    Much of the GAO report appears to me to be one of setting 
up systems of metrics so the Coast Guard knows where it is on 
all of these tasks that it has to do, that there is a 
methodology of reporting, so many sailors doing--excuse me, so 
many coasties doing whatever they are supposed to be doing, so 
much drug interdiction, so much work on boating accidents and 
so forth. And that seems to me to be useful internally for the 
Coast Guard to keep track of where it is and what it is 
supposed to be doing.
    For us, we have a somewhat different task. We will be 
looking at the larger picture, reviewing particularly where the 
big money is going, where the big tasks are going, and if we 
can set up some sort of a repetitious, not every month, maybe 
every 6 months, but certainly no less than every year, where we 
are reading, OK, where are you on the icebreakers, which 
probably would be like once every other month because of the 
way in which it is now gearing up.
    Anyway, that is kind of where I am coming from, and I would 
like to see if there is some way we can keep track of that.
    Right now it is hit and miss depending upon when we are 
able to call a hearing, and maybe we are asking for it and 
maybe we are not. But just as a way of keeping track of where 
we are on these major programs would be useful as I look at 
what the Coast Guard is responsible to do.
    With regard to the annual budgeting and so forth, I 
understand OMB, and I understand all the games that you have to 
play there, and I understand that you really don't control your 
budget, and that the Department of Homeland Security is 
probably ripping your budget off to build something, maybe a 
wall, I don't know. But whatever. We understand you don't 
control all of that. We can, if we have knowledge and 
information.
    So thank you. I will let it hang out there and see.
    Mr. Hunter. I thank the gentleman.
    That is a great question, if you could track the icebreaker 
progress. But if you can't do the CIP and everything else is 
late and your internal metrics and targets don't match your 
external outside-in metrics, I think it is a futile thing to 
ask you to report to us because you will just be late and say: 
We are working on it, it is important to us and we are working 
on it. But we can talk about that.
    Mr. Anderson, let's go here, because we are talking about 
DHS. Is it DHS' prohibition on the Coast Guard that does not 
allow them to release a full annual performance report?
    Mr. Anderson. I believe that would be a better question for 
the Coast Guard witness.
    Admiral Fagan. So, Mr. Chairman, with previous negotiations 
with DHS with regard to releasing the full report, the 
preference was for partial reporting within the totality of the 
DHS report.
    We have every intent this year and are very close to 
publishing the full performance measures report. I am confident 
that here quite soon that will be publicly available, the total 
report will be fully published.
    Mr. Hunter. Does the Coast Guard feel that it is being 
asked to record too many metrics, too many things that don't 
have anything to do with the outcome of your 11 missions?
    Admiral Fagan. The performance measures report and the 
process that we use to look at those measures and evaluate our 
performance and effectiveness are part of the process, the 
annualized, repeatable process, and are absolutely critical and 
essential to us continually evaluating how we are performing 
and how----
    Mr. Hunter. But it can't be that essential, because a lot 
of these reports are late.
    Admiral Fagan. So are you referring to the performance 
report, sir?
    Mr. Hunter. No, CIP. But I am just saying these are all 
things that are due, these are all things that inform you about 
your progress and what you need and how much money you need and 
how well the Coast Guard is doing. If they are not on time, 
like the CIP, how do you use that to inform yourselves?
    Admiral Fagan. So, sir, we are absolutely committed to 
delivering a CIP. I acknowledge that we are late on the 
deliverable. But that document is as valuable to us as it is to 
you, and we are committed to getting it to the committee as 
soon as possible, sir.
    Mr. Hunter. Let me ask you this, Mr. Anderson. How do the 
Service's 11 statutory missions align with the DHS goals for 
the Coast Guard?
    Mr. Anderson. Well, in our recent review, we found there 
were 37 performance goals that are meant to align with the 11 
statutory missions. Those goals either fully or partially 
aligned with the statutory missions.
    Where there wasn't perfect alignment, we did recommend that 
the Coast Guard identify new goals needed or, alternatively, 
explain to Congress and to others why these proxy goals fit the 
bill.
    One example here is on drug interdiction. The Coast Guard 
uses cocaine as a proxy. That doesn't reflect the entire suite 
of drug interdiction activities or all the narcotics that the 
Coast Guard ultimately interdicts. So we asked the Coast 
Guard----
    Mr. Hunter. Wait. What you are saying is they have metrics 
for coke, but not marijuana or heroin or whatever?
    Mr. Anderson. Reportable metrics. The Coast Guard does----
    Mr. Hunter. They obviously have metrics on how much weed 
they interdict every year, right?
    Mr. Anderson. Yes.
    Mr. Hunter. They just don't give that to you?
    Mr. Anderson. They don't give that to you.
    Mr. Hunter. Got you. Why is that?
    Mr. Anderson. That would also be a better question for the 
Coast Guard.
    Mr. Hunter. OK. Admiral, why would it affect--is this just 
an oversight or----
    Admiral Fagan. So we do use--cocaine, volume cocaine 
interdiction is one of our key metrics within the 
counternarcotics mission set. We acknowledge that there are----
    Mr. Hunter. Is that because it is the most expensive drug 
out there or most prevalent on the high seas or what?
    Admiral Fagan. It is the metric we are currently using, 
sir. We acknowledge that there are other indicators that would 
perhaps be better indicators of performance in the mission set, 
and we are very much--we look forward to having that 
conversation with GAO.
    Mr. Hunter. But you keep track of that.
    Admiral Fagan. We do track interdictions, detainees, yes, 
sir.
    Mr. Hunter. You just don't--OK, so just help clear this up. 
Why don't you give it to us?
    Admiral Fagan. I guess I was not aware that we weren't 
sharing that information.
    Mr. Hunter. Have we not requested it?
    Admiral Fagan. We do track that. We do track that, sir.
    Mr. Hunter. OK, thank you.
    That is really all I have unless Mr. Garamendi or the other 
members here.
    Ms. Plaskett, you are recognized.
    Ms. Plaskett. Sure. Thank you.
    Mr. Hunter. We are always happy to have somebody else chime 
in besides me and John.
    Ms. Plaskett. Anytime.
    I just wanted to ask a couple of questions regarding 
commercial fishing classification. The classification standards 
that apply to virtually every other class of commercial 
vessels, in general, these standards have improved greatly the 
overall safety record of commercial vessels.
    Mr. Anderson, does the GAO agree that classified standards 
improve the safety of the commercial vessels?
    Mr. Anderson. Well, that is an area where we don't believe 
data exists. When we performed our performance evaluation, one 
of the key takeaways was that the Coast Guard needs data to 
determine whether classing has a positive effect on safety. So 
this is where there is a paucity of data.
    Ms. Plaskett. So it may not. It may or may not. You are 
still looking for the data to make that determination?
    Mr. Anderson. Yes. We have ultimately recommended that a 
working group be formed to go get data such as that, because we 
believe that first we need the data to determine whether or not 
classing has a positive effect on safety.
    Ms. Plaskett. And why don't you have the data at this 
point?
    Mr. Anderson. Well, there are various entities that 
ultimately collect the data. Coast Guard collects some. Other 
Federal agencies collect others. State regulators also collect 
some.
    Hence, our recommendation for a working group to bring 
together those parties, to identify data on the number of 
commercial fishing vessels, which basically puts the Coast 
Guard in the position of having a denominator. Right now it 
essentially has a numerator.
    Ms. Plaskett. So in your recommendation for this working 
group, you mention that the Coast Guard, NIOSH [National 
Institute for Occupational Safety and Health], National Marine 
Fisheries Service should form the working group. Do you think 
that other stakeholders, such as State organizations or 
industry representatives, should be in that working group as 
well?
    Mr. Anderson. Yes. We do believe that others should be in 
that working group, in large part, for the reasons I stated, 
that some of those entities have data on commercial fishing 
that may not currently be available to the Federal agencies.
    Ms. Plaskett. OK. And it is your recommendation as well 
that the Coast Guard issue regulations or guidance to clarify 
or implement alternative safety compliance programs, which you 
referred to as alternative to class approach. Is it necessary 
to issue formal regulations or would guidance be sufficient in 
this area?
    Mr. Anderson. Well, I think in this area there are some 
advantages to regulations. Regulations set up a formal process. 
Regulations also invite a number of different perspectives to 
the table--including industry representatives. And it is time-
bound. So I can see some advantages to the regulations route.
    Ms. Plaskett. Now, were you also able to determine whether 
the regulations or guidance was helpful in less than commercial 
class vessels that the Coast Guard reviews?
    Mr. Anderson. I don't believe that was within the scope of 
that engagement.
    Ms. Plaskett. Have you done it in the past, do you know?
    Mr. Anderson. I would have to get back in touch with you 
with an answer for that one. I can talk to my subject matter 
experts back at GAO.
    Ms. Plaskett. OK.
    Admiral Fagan, do you know if that has been done, reviewed 
in the past, the effectiveness and the efficacy of the 
regulations to safety, of the Coast Guard having regulations or 
guidance on other vessels that are not commercial vessels?
    So I am thinking in the Virgin Islands, we don't have large 
commercial vessels that one thinks of specifically, but we do 
have smaller vessels that are constantly around the island, 
whether they are yachts or individuals going on excursions or 
even private boaters in the area.
    Do you know if there are studies that determine the 
effectiveness of those guidelines versus regulations?
    Admiral Fagan. I am not aware of a study that looked 
specifically at guidelines versus regulations. We, as we look 
at different types of vessels and the risk, use regulations and 
policy and voluntary safety systems, a whole host of tools, to 
help bring better safety records and safety for the people that 
are operating those vessels.
    Ms. Plaskett. Because I know, while I don't mind and I see 
the benefit to all coming on a lot of the vessels in the Virgin 
Islands for security reasons as well, not just safety of the 
vessel, I know that our weekend boaters, going to Buck Island 
in particular, you know, might have a different view of that.
    So having the data I think would be really important. And I 
think that GAO, have they looked into the implementation of the 
classification requirements, whether or not which ones are 
necessary and which ones are most effective, if that has been 
put in place as well?
    Mr. Anderson. The scope of that report was really on the 
need for more reliable data in these commercial fishing 
vessels.
    With your permission, I do have one of my experts here to 
assist, if you would like an answer to that question 
specifically from one of my colleagues.
    Ms. Plaskett. If you could give that to us afterwards, that 
would be helpful.
    OK. Thank you very much.
    Mr. Hunter. Mr. Garamendi, you are recognized.
    Mr. Garamendi. I think I will do this for the record, just 
to save some time here, to follow up on what Ms. Plaskett was 
talking about, and it is the fishing classification standards. 
We have that for the larger commercial vessels. They are in 
line with the IMO [International Maritime Organization] 
standards. I believe that we have exempted the smaller boats, 
smaller fishing boats.
    And the question is, from the experience of the Coast 
Guard, would we improve the life safety if the smaller boats 
were not exempted and had to meet higher standards or perhaps 
the international commercial standards?
    Just we need to get into that. That is an issue that comes 
back here on a regular basis. And it would be helpful to have 
some of the Coast Guard experience and advice on that issue.
    So I will let that hang out there. I doubt that you will 
have an answer right now, but we will give it to you for the 
record.

    [The information from the U.S. Coast Guard follows:]

        Operators of all vessels, both commercial and recreational, 
        benefit from enhanced safety standards and practices. 
        Preventative minimum safety is the basis of meeting the 
        standards and regulations presently available, whether at the 
        industry, Federal Government, or international convention 
        (treaty) levels. For commercial vessels, the standards and 
        regulations are based on the vessel's operations, the size of 
        vessel, the amounts and types of cargo or passengers carried, 
        and where the vessel operates. The standards and regulations 
        for commercial vessel operations and construction are based on 
        the vessel's intended use and the types of waters in which the 
        vessel will operate.

    Mr. Garamendi [continuing]. Also, the chairman and I were 
just trying to figure out how we can stay on top of the 
activities, the major programs that the Coast Guard is 
responsible to carry out. There are 11 of them. Then there are 
all these new ships that you are building, cutters that you are 
building, aircraft that you are repurposing, the C-27s and the 
like. And you, obviously, have heard frustration about the CIP 
and the lateness of it.
    In a question that I asked a while ago, Admiral, you 
indicated that you do quarterly reviews, or maybe more often 
than quarterly, probably 6 months also, updates on how these 
major programs are going in the internal management of the 
Coast Guard. And I assume that is all the way up to the 
Commandant, sit around a table and say, what is happening with 
the C-27s out in McClellan. Are we getting them done? Are we 
not getting them done? What is the problem?
    To ameliorate the frustration that we have about the CIP, 
which seems to be not timely, presented to us in a timely way, 
I think I am going to suggest that we pursue a more informal 
but more often review of where we are on the major programs 
that we follow.
    There is a lot of money involved. They are critical to the 
future work or the ability of the Coast Guard to carry out its 
missions. And if you have that internal information, I don't 
know if it needs to be edited, but it would surely be helpful 
to us to keep track of where we are as we do our work on 
authorization and appropriations.
    We are not the appropriating committee, but we do talk to 
them from time to time, and they should see things our way, and 
when they don't we try to persuade them otherwise.
    But, taken together, I think we would be able to keep 
better track of where the Coast Guard is on its major programs 
and activities and simultaneously be able to be of more 
immediate help when needed on whatever the problem might be.
    So I am going to let that hang out there for your review 
and someday over a cup of coffee maybe we can pursue that. Do 
you think that would be helpful, Mr. Anderson?
    Mr. Anderson. I am sorry. Could you specify the part about 
which part would be helpful?
    Mr. Garamendi. That it would be helpful to receive a, I 
don't know, let's say a quarterly or at least a semiannual 
update on where the major programs are. The Coast Guard 
apparently does it internally.
    Mr. Anderson. I am aware that we provide a similar service 
for other major programs and other departments where we do 
speak to the appropriators and authorizers on a routine basis, 
such as quarterly.

    [Nathan Anderson of the U.S. Government Accountability Office added 
the following post-hearing supplement to his remark:]

        We also provide information on Coast Guard programs in our 
        annual assessment of major DHS acquisition programs.

    Mr. Garamendi. I thought you might. And it would be 
helpful, I think, for us in our oversight review. And we do--
what, every other year, or every year, every other year--a 
reauthorization. Every other year a reauthorization. And the 
appropriations are annual.
    And so if we can be helpful with the appropriators, this 
kind of information is important. Maybe less formal, but maybe 
we just sit on it with a cup of coffee and review where we are.
    With that, Mr. Chairman, I yield back. Thank you very much.
    Mr. Hunter. I thank the ranking member.
    Let me add, too, I was looking at your program baseline, 
the approved program baseline, which I assume informs the CIP, 
right, Admiral?
    So that your program baselines, which I imagine a bunch of 
bars on charts, informs your capital investment for your 5-year 
building plan, basically. But your baseline doesn't have C-
130J, C-27, C-144s, the ninth NSC that we gave, or the six FRCs 
needed to replace the CENTCOM [U.S. Central Command] FRCs.
    If that is needed to inform your CIP, we might even be 
happy just seeing the program baselines that you have right now 
until the CIP is completed, whenever that may be. I am not 
enthusiastic about seeing anything, frankly.
    On the Armed Services Committee we do mean things, like 
take away Suburbans and airplanes from four-stars when they 
don't get us the things that we require.
    We are going to make sure too that we are not overburdening 
you with reports. Otherwise, that is our fault. Last 
authorization, we gave you a whole section with the reports 
that we thought were important. We changed the structure, 
right?
    So now you have one section. We are going to go through 
that and look at those to make sure that you are not being 
overburdened and you are only reporting to us what you need to 
so that those few things could be on time for once, ever.
    Lastly, with performance tracking, Mr. Anderson talked 
about how the higher headquarters says 800-something hours, the 
guys actually driving the boats say 500 hours, and that leaves 
you with a 300-hours-something gap. That doesn't help anybody, 
it really doesn't.
    And I am just not sure why it is done that way. It is not 
done that way for any other service that I have seen. If your 
aircraft is this many years old and it has this many hours on 
it, here are how many years or hours we expect out of it, 
right? That is how it is normally done. It is not a top-level 
thing where they say, this is what it is supposed to do if it 
was brandnew, and the people on the ground say, well, this is 
what it can actually do.
    Am I getting that right, Mr. Anderson?
    Mr. Anderson. Yes, you are. That report from about 2 years 
ago that we issued did say that there was a difference between 
what the field units knew could be used for a particular asset 
and the direction it was getting, the strategic intent from 
headquarters. There was a delta there. For the example that you 
are citing, it was 575 hours versus 825 hours for a cutter.
    Mr. Hunter. I think in the end, Admiral, it looks like the 
Coast Guard is making things harder on itself by not using 
consistent metrics, by not aligning with DHS, and not aligning 
with us on this committee so we can say, hey, your outcomes 
were great. Because if you look at your missions and you really 
delve into them and you don't do the 800 hours versus 500 
hours, but you look at your outcomes, right, those things that 
we don't get all of that GAO was talking about that we would 
like to start getting, if you look at those you are successful.
    So it looks to me like it is a problem between point A and 
point Z. You are getting to point Z and doing a great job. 
Point A sounds good. But everything in between, it is not 
matching up. And it is providing us with trouble, and it is 
providing you with trouble, and it is providing GAO with 
trouble, and probably DHS with trouble too.
    So we will look through this and see what we can do to 
assist you to cut down on the reports you have to do that 
aren't necessary and to require the reports that we need. There 
are only a few of them, because we are not going to tell you 
how to tend buoys. We are not going to tell you how to jump out 
of a helicopter and rescue somebody.
    Mr. Garamendi. Oh, come on. You can do that.
    Mr. Hunter. Right, we would like to. Marines don't do that; 
we just kill people.
    But what we can ask you to do and what we need is a Capital 
Investment Plan, so we can say, here is how much money you are 
going to need, so we can go fight for it on your behalf.
    And we can't do that the way that we have been doing it, 
which is with our secret handshakes with OMB and the 
administration, figuring out what you really need and then 
adding that to what you ask for, right.
    It is not going to go that way forever, because you might 
have different personalities sitting here and a different 
personality sitting there, or vice versa, where the handshake 
control thing just doesn't work.
    So, with that, I am not sure we--I mean, we accomplished a 
lot of venting here, and that is about it, I think.
    So thank you very much for being here.
    With that, we are adjourned.
    [Whereupon, at 3:18 p.m., the subcommittee was adjourned.]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
    
    
                        [all]
                        
                        
                        
</pre></body></html>
